CERTIFICATE OF SERVICE
No.
ANTHONY JOHNSON
Petitioner,
v.

STORIX, INC.,
Respondent.

In accordance with the Supreme Court’s ORDER of April 15, 2020 and as
required by Supreme Court Rule 29.5,1 certify that the PETITION FOR WRIT OF
CERTIORARI was electronically served to the email addresses of the attorneys for
the Respondent below on April 16, 2020:
Kendra J. Hall, Esq.
Paul A. Tyrell, Esq.
Sean M. Sullivan, Esq.
PROCOPIO, CORY,
HARGREAVES & SAVITCH LLP
525 B Street
Suite 2200 San Diego, CA 92101
Telephone: 619.238.1900

kendra.hall@procopio.com
paul. tyrell@procopio. com
sean.sullivan@procopio.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 16, 2020

Anthomj^Johnson
Pro Se Petitioner

RECEIVED
APR 2 2 2020
supreme'cTourt-5RoK

